NO. 20-7406

IN THE
SUPREME COURT OF THE UNITED STATES

LIONEL ROBINSON — Petitioner
vs.

MARK INCH, SECRETARY FLORIDA DEPARTMENT OF CORRECTIONS,
ET. AL, — Respondent

PROOF OF SERVICE
I Lionel Robinson, do swear or declare that on this date,
, 2021,
as required by Supreme Court Rule 29 I have served the MOTION POR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR REHEARING on each
party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows: Attorney General of
Florida, The Capitol PL-01, Tallahassee, Florida 32399; Secretary, Florida
Department of Corrections, 501 S. Calhoun St., Tallahassee 32399-2500.
I declare under penalty of perjury that the following is true and correct.

Executed on July

Z\

, 2021
Lionel Robinson, DC# G15804
Cross City Correctional Inst.
568 N.E. 255th Street
Cross City, Florida 32628

